                             OFFICE OF THE INSPECTOR GENERAL
                             CORPORATION FOR NATIONAL AND
                                   COMMUNITY SERVICE




                                PRE-AUDIT SURVEY OF THE
                             MASSACHUSETTS SERVICE ALLIANCE

                                   OIG Audit Report Number 0 1-24
                                         October 27,2000




                                               Prepared by:

                                             KPMG LLP
                                          2001 M Street N.W.
                                         Washington, DC 20036

                                Under CNS OIG MOU # 98-046-5003
                                   With the Department of Labor
                                   DOL Contract # 5-9-G-8-0022
                                        Task # B9GOV203




This report was issued to Corporation management on April 4, 2001. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than October 1, 2001, and complete its corrective actions by April 4, 2002.
Consequently, the reported findings do not necessarily represent the final resolution of the issues presented.
                                                                                            CORPORATION
                                  Office of Inspector General
                        Corporation for National and Community Service                      FOR NATIONAL


                                    Pre-Audit Survey of the
                                  Massachusetts Service Alliance
                                 OIG Audit Report Number 01-24


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its ArneriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, ArneriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.
Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility. However,
the Corporation lacks a management information system that maintains comprehensive information on
its grants including those to state commissions and subgrantees. Moreover, although the Corporation
began state commission administrative reviews in 1999, the Corporation, historically, has not carried
out a comprehensive, risk-based program for grantee financial and programmatic oversight and
monitoring. It is also unlikely that AmeriCorps programs are subject to compliance testing as part of
state-wide audits under the Single Audit Act due to their size relative to other state programs.
Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on
the state commissions' operations and funding. The surveys are designed to provide a preliminary
assessment of the commissions' pre-award and grant selection procedures, fiscal administration, and
monitoring of subgrantees (including AmeriCorps Member activities and service hour reporting).
Recommendations for future audit work consider the pre-audit survey results, known audit coverage,
the amount of funding, and other risks. For each survey, we also issue a report to the state commission
and to the Corporation communicating the results and making recommendations for improvement, as
appropriate.
We engaged KPMG LLP toperform thepre-audit survey of the Massachusetts Service Alliance. Based
on the limited procedures performed, KPMG concluded that the Alliance administers an open,
competitive process to select national service subgrantees. KPMG also concluded that the Alliance has
established adequate control policies and procedures for its administration of grants funds.
Nonetheless, their report includes recommendationsfor improvements in both areas.
With respect to subgrantee monitoring, KPMG reported that, prior to program year 1998-1999, the
Massachusetts Department of Education sewed as the Alliance 'sJiscal agent and was responsiblefor
subgrantee monitoring. For those years, evidence was not provided to KPMG to support the
performance offiscal monitoring site visits or review of subgrantee audit reports. Moreover, fiscal
monitoring visits were not performed for program year 1998-99. KPMG found that, now that it has




                                                                                         Inspector General
                                                                                         1201 New York Avenue, NW
                                                                                         Washington, DC 20525
begun performingsubgrantee monitoring, the Alliance has established controls to evaluate and monitor
its subgrantees. However, KPMG recommends enhancements to the present site monitoringprotocols
including better documentation and verijkation of selected program accomplishments.
Finally, based on their preliminary assessments and the information obtained during the suwey, KPMG
recommends that the Corporation follow-up to ensure appropriate actions are taken to address the
conditions reported herein, and recommends the OIGperform limited scope audit workfor allprogram
years, focusing on subgrantee expenses and the issues revealed by this pre-audit survey.
In their responses to the report, both the Alliance and the Corporation disagreed with KPMG's
recommendation that OIG consider limited audit work at the Alliance in the future. The Alliance's
response (Appendix C) also disagreed with the overall findings for each area, but indicated that the
Alliance had implemented some of the recommended improvements. In its response (Appendix D), the
Corporation agreed with recommendations for improvements in the Alliance's grant award and fiscal
administration controls, but disagreed with KPMG's recommendations for improving the site visit
monitoring tool. As described on page 5, KPMG reviewed the responses and revised certain portions
of the report. However, other than to add clarifying language, KPMG did not change its audit scope
recommendation or the findings and recommendations.
CNS OIG reviewed the report and the work papers supporting its conclusions. We agree with the
findings and recommendations. As recommended by KPMG and in accordance with the guidance
established by OMB Circular A-133, "Audits of States, Local Governments, and Non-Profit
Organizations," we will consider the results of independent financial and compliance audits performed
at the Alliance and its subgrantees in determining the nature and scope of our future audit work.
                                              Pre-Audit Survey of the
                                            Massachusetts Service Alliance
                                                 Table of Contents



RESULTS IN BRIEF ...................................................................................................................... 1

BACKGROUND .............................................................................................................................2

OVERVIEW OF THE MASSACHUSETTS SERVICE ALLIANCE ............................................ 3

OBJECTIVES. SCOPE. AND METHODOLOGY .........................................................................4

FINDINGS AND RECOMMENDATIONS.................................................................................... 6

APPENDIX A. ALLIANCE FUNDING: 1994-95 THROUGH 1999-2000...............................A .1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY ............................................................................................................... B .1

APPENDIX C. MASSACHUSETTS SERVICE ALLIANCE RESPONSE ...............................C.1

APPENDIX D. CORPORATION RESPONSE .......................................................................D .1
             2001 M Street, N.W.
             Washington, D.C.20036




October 27,2000



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP (KPMG) performed a pre-audit survey of the Massachusetts
Service Alliance (the Alliance). The primary purpose of this survey was to provide a
preliminary assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Alliance; and
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Alliance.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Alliance's systems for administering its AmeriCorps
grants:

    The Alliance administers an open, competitive process to select national service subgrantees.
    However, we noted that all Commissioners are not required to sign conflict of interest forms
    annually, and documentation supporting funding rejections was not available for some
    selected applicants prior to program year 1999-2000.

    The Alliance has developed adequate control policies and procedures to administer the
    Corporation's grant funds. However, for program years prior to 1998-99, documentation
    was not provided to us by the Alliance's fiscal agent to support total expenses reported on
    selected Administrative and PDAT Financial Status Reports (FSRs). In addition, the
    Alliance does not document its review of subgrantee FSRs or its follow-up on untimely
    subgrantee FSRs.

    The Alliance has established controls to evaluate and monitor subgrantees. However,
    evidence was not provided to us by the Alliance's fiscal agent to support the performance of
    fiscal monitoring site visits or review of subgrantees' Office of Management and Budget
    (OMB) Circular A-133 audit reports prior to program year 1998-99. For years subsequent to




1111           KPMG LLP KPMG LLP a U S I r n t e d a b t y oaitnershp s
               a rrleniber of KPMG lnterilaiorral. a Swiss a,socatton
   this, the Alliance assumed the responsibility for fiscal monitoring. However, fiscal
   monitoring visits were not performed in program year 1998-99.

The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.

The Alliance has received annual OMB Circular A- 133 audits since fiscal year 1994 with no
significant internal control or compliance findings reported. Page 3 of this report contains
detailed information about which Corporation-funded programs were tested as major programs
each year. Although certain documentation for program years prior to 1998-99 was not provided
by the Alliance's fiscal agent during our on-site work, sufficient documentation to support
individual expenses was obtained, and the completion of annual OMB Circular A-133 audits that
included the Administrative andlor PDAT grants mitigates the related risk. Based on this
information and our preliminary assessments, we recommend the performance of a limited scope
audit at the Alliance for program years 1994-95 through 1998-99 with a focus on subgrantee
expenses and limited audit procedures to address the issues identified herein at the Alliance for
program year 1999-2000. To the extent possible, the auditors should rely on the work performed
during the OMB Circular A- 133 audits of the Alliance and its subgrantees for applicable periods.

Additionally, we recommend that the Corporation follow up with the Alliance to determine that
appropriate corrective actions are put into place to address the conditions reported herein, and
that the Corporation consider these conditions in its oversight and monitoring of the Alliance.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
Members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.
The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.

Overview of the Massachusetts Service Alliance

The Massachusetts Service Alliance, located in Boston, Massachusetts, has received AmeriCorps
grant funds from the Corporation for National and Community Service since program year 1994-
95. Since inception in January 1991, its staffing has been provided by a non-profit organization,
the Massachusetts Youth Service Alliance (MYSA), with oversight for policy and program
direction provided by Governor-appointed Commissioners. The Alliance was known as the
Massachusetts National and Community Service Commission through October 1997, at which
time the Governor issued an executive order changing the name to the Massachusetts Service
Alliance Commission. In August 1998, MYSA filed a "doing business as" (DBA) request with
the city of Boston to also be known as the Massachusetts Service Alliance, allowing both the
non-profit organization and the Commission to operate under the common name of the
Massachusetts Service Alliance.

The Alliance currently has 14 employees, including an Executive Director and a Chief Financial
Officer; however, staff size has varied over the years. Prior to program year 1998-99, the
Massachusetts Department of Education (MDOE) served as the Alliance's fiscal agent and was
responsible for fiscal monitoring of the Alliance's subgranteps. The Alliance assumed all fiscal
responsibilities in program year 1998-99.

Annually, the Alliance receives an audit by an independent accounting firm as required by OMB
Circular A- 133, Audits of States, Local Governments, and Non-Profit Organizations. From the
fiscal year ended June 30, 1995, through the fiscal year ended June 30, 1999, at least one of the
Alliance's Corporation-funded programs was audited as a major program each year. As a result
of these audits, no material internal control or compliance findings or questioned costs were
reported. However, grants passed through to AmeriCorps subgrantees (CFDA No. 94.006) were
not included in the Alliance's Schedule of Expenditures of Federal Awards until fiscal year 1999
because this funding flowed directly from MDOE to the subgrantees prior to that time.

The following chart summarizes the Corporation-funded programs that were audited as major
programs from fiscal year 1994 through fiscal year 1999:

           Fiscal Year              Corporation-funded Program(s) Audited

               1994         None - all programs considered non-major
               1995         Administrative grant
               1996         Administrative, PDAT and Learn and Serve grants
               1997         Administrative, PDAT and Learn and Serve grants
               1998         PDAT and Learn and Serve grants
               1999         PDAT, AmeriCorps, and Disability grants
The Alliance provided us with the following information for all program years:

                                                                            Number of
                                                                            Subgrantees
                             Total Corporation         Number of          Subject to A- 133
         Program Year            Funding               Subgrantees            Audits




Appendix A contains more detailed information on funding received from the Corporation
during program years 1994-95 through 1999-2000.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Alliance for administering its AmeriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment of:

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Alliance; and
    the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
    Member activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Alliance.

Our survey included the following procedures:

    reviewing applicable laws, regulations, grant provisions, the Corporation's State
    Administrative Standards Tool, and other information to gain an understanding of legal,
    statutory and programmatic requirements;

    reviewing OMB Circular A-133 reports and current program year grant agreements for the
    Alliance;

    obtaining information from Alliance management to complete flowcharts documenting the
    hierarchy of AmeriCorps grant funding for program years 1994-95 through 1999-2000; and

    performing procedures to achieve the objectives detailed in Appendix B to assess the
    Alliance's internal controls, selection of subgrantees, administration of grant funds, and
    monitoring of grants, including internal controls over service hour and program
    accomplishment reporting.
As part of the procedures performed, we documented and tested internal controls in place at the
Alliance using inquiries, observations, and examination of a limited sample of source documents.
Finally, we summarized the results of our work to develop the findings and recommendations
presented in this report. We discussed all findings with Alliance management during an exit
conference on October 27,2000 or prior to the issuance of the draft report. Subsequent to that
date, we communicated with the Alliance to clarify and resolve certain matters related to our
preliminary findings and to obtain additional information to finalize our report.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Alliance, or on its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements, or on the Alliance's controls or compliance. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to
you.

We provided a draft of this report to the Alliance and the Corporation. The Alliance's and
Corporation's responses to our findings and recommendations are included as Appendix C and
D, respectively. We have updated the chart on page 4 of this report based on the information
provided in an appendix to the Alliance's response and have added clarifying language to the
recommended audit scope paragraph on page 2. However, we continue to believe the results of
our pre-audit survey presented in the Findings and R.ecommendations section of this report
support the audit scope recommended for the Alliance. Accordingly, no additional changes were
made to this report.
Findings and Recommendations

Selecting Subgrantees

According to 45 CFR Section 2550.80 (b)(l), "Each State must administer a competitive process
to select national service programs to be included in any application to the Corporation for
funding."

The Alliance administers an open, competitive process to select national service subgrantees. As
part of this process, the Alliance advertises funding availability through mailings to a database of
approximately 8,000 non-profit organizations, school districts, and state and local community
leaders in the Commonwealth of Massachusetts; in newsletters; and via a website link on the
Massachusetts Grant Makers website, a non-profit organization that announces the availability of
grant funds in a central location. Peer reviewers sign conflict of interest statements annually,
receive training on the selection process and conflicts of interest, and use a standard rating sheet
to evaluate each applicant. In addition, the Alliance performs a pre-award risk assessment for
applicants to assess financial management capabilities, including the review of OMB Circular A-
133 or other audit reports. However, we identified the following areas for improvement within
the selection process.

        Completion of Conflict ofhterest Forms for All Commissioners

Although the Alliance staff discusses conflict of interest issues with peer reviewers and requires
completed conflict of interest forms from those Commissioners participating on the peer review
panel, Alliance policies and procedures do not require completed conflict of interest forms from
Commissioners who do not participate in the initial review process. However, if no conflicts of
interest are identified, all Commissioners vote on the final decision to approve or deny funding.
Therefore, certain Commissioners who are actively involved in funding decisions do not
complete conflict of interest forms. If Commissioners have conflicts of interest but do not report
them, the fairness of the selection process may be impaired.

In addition, the Alliance was unable to locate any completed conflict of interest forms for the
members of the peer review panels for program years 1994-95 through 1997-98. However,
because no file retention issues were noted in program year 1998-99 and beyond, and procedures
are currently in place to maintain these forms, no recommendation is required related to the
maintenance of conflict of interest forms.

        Lack of Documentation to Support Funding Rejections and Communications to Rejected
        Applicants Prior to Program Year 1999-2000

During our procedures over a sample of eight rejected applicants, we noted the following:

    Documentation supporting the funding decisions was no longer available for four applicants
    (program years 1998-99 and prior).

    The Alliance was unable to locate the denial of funding letter for two applicants (program
    years 1997-98 and 1998-99).
Previous Alliance policy required the destruction of documentation supporting funding decisions
one year after the information was communicated to the applicant. As a result, we were unable
to assess for adequacy the rationale supporting the selected funding decisions and
communications to the rejected applicants.

In program year 1999-2000, the Alliance revised its policy to require the maintenance of denial
of funding letters and documentation supporting all funding decisions. Therefore, no
recommendation is required related to documentation of funding rejections.

        Recommendation:

We recommend that the Alliance develop and implement procedures that require all
Commissioners to annually complete conflict of interest statements for each of the Alliance's
three grant funding streams.

Administering Grant Funds

As part of the grant administration process, "Grantees are responsible for managing the day-to-
day operations of grant and subgrant supported activities. Grantees must monitor grant and
subgrant supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function
or activity" (45 CFR Section 2541.400(a)).

The Alliance has developed and implemented procedures that are intended to provide reasonable
assurance that grant funds received from the Corporation are properly administered. Procedures
are currently in place to withhold funding payments if subgrantees do not submit FSRs timely; to
manage cash draw downs and disbursements to subgrantees; and to ascertain whether
subgrantees have met their matching requirements. The Alliance's personnel have adequate
skills and experience to manage and administer Corporation grant funds. However, we identified
the following areas for improvement within the grant administration process.

        Lack of Documentation to Support Alliance FSRs Prior to Program Year 1998-99

During our procedures over Alliance FSRs, we noted the following:

    For 1 of 20 Administrative and PDAT FSRs selected, neither the FSR or documentation
    supporting the reported expense amounts was provided to us (program year 1995-96).

    For 9 of the remaining 19 Administrative and PDAT FSRs selected, documentation
    supporting the reported expense amounts was not provided to us (program years prior to
    1998-99).

As the Alliance's fiscal agent prior to program year 1998-99, MDOE was responsible for the
preparation of FSRs for the Administrative and PDAT grants. Pursuant to the records retention
policy of the Commonwealth of Massachusetts, the records related to this period have been
archived and were not readily available during our on-site work. In addition, at the time of the
pre-audit survey, the grants management office of MDOE was preparing to relocate, and
documentation for many of the items requested was not made available. As a result, we could
not determine (a) if the missing FSR was submitted timely, was properly approved, or was
supported by adequate documentation or (b) if the 9 FSRs were supported by adequate
documentation.

According to OMB Circular A-1 10, Uniform Administrative Requirements for Grants and
Agreements With Institutions of Higher Education, Hospitals, and Other Non-ProJit
Organizations, section 53(b), "Financial records, supporting documents, statistical records, and
all other records pertinent to an award shall be retained for a period of three years from the date
of submission of the final expenditure report."

In program year 1998-99, the Alliance began preparing and submitting its Administrative and
PDAT FSRs. We noted no exceptions in our procedures over FSRs prepared in program years
1998-99 or 1999-2000. Therefore, no recommendation is required related to supporting
documentation for Administrative and PDAT FSRs.

        Review and Timeliness of Subgrantee FSR Submissions

Prior to program year 1998-99, documentation from MDOE was not available to support the
review of FSRs for compliance with subgrantees' budgets and grant requirements and for
consistency with the subgrantees' Request for Funds. In addition, for program years 1998-99
and 1999-2000, the Alliance did rot document its review of subgrantee FSRs. Although
Alliance procedures require personnel to review FSRs, this review is not required to be
documented. As a result, we could not determine if subgrantee FSRs were adequately rewewed.
Without proper documented review of subgrantee FSRs, errors on the FSRs may be undetected.

The Alliance does not have documentation to support its follow-up efforts related to the late
submission of subgrantee reports to the Alliance. (However, for t'he reporting period related to
the late subgrantee FSR noted in our sample of 20, the Alliance did submit its consolidated FSR
to the Corporation on time.) Although Alliance procedures require personnel to follow-up with
subgrantees about untimely reports, this follow-up is not required to be documented. As a result,
we could not determine if adequate follow-up was performed related to late submission of
subgrantee reports.

Prior to the implementation of the Web Based Reporting System (WBRS), the Alliance did not
date stamp FSRs upon receipt. As a result, the Alliance could not routinely verify if these
documents were submitted timely in compliance with the grant agreement, and subgrantee FSRs
may have been submitted late without appropriate follow-up action. However, in program year
1999-2000, the Alliance began using WBRS, which electronically records the date subgrantees
submit their FSRs and progress reports. Therefore, no recommendation is required related to
date stamping subgrantee reports upon receipt.

         Tagging of Property and Equipment

The Alliance has sufficient internal control procedures in place to ensure that property and
equipment are adequately safeguarded. For the fiscal year ended June 30,2000, the Alliance had
property and equipment with acquisition costs of approximately $120,000. To secure these
assets, the Alliance has implemented procedures such as an internal sign-out log, locked storage
facility, and the performance of annual inventories. However, because much of this property and
equipment includes easily-negotiable items such as notebook computers and other electronics,
the Alliance could further enhance its procedures by affixing property tags to all property and
equipment items upon receipt.

OMB Circular A- 133 Compliance Supplement, March 2000, Part 6- Internal Control suggests
that placing property tags on equipment is a key control to ensure the adequate safeguarding of
equipment.

        Computer System Back-up Procedures

The Alliance relies heavily on its computer system. It has its own server maintained by a staff
member and has retained the services of a computer consultant to perform periodic system
maintenance and repair.

The Office Manager is responsible for backing up the system, a task which is performed almost
everyday that she works. These duties, however, are not included in her position description,
and no formal documentation exists which requires that the system be backed-up periodically.
Additionally, procedures are not in place that would require another staff member to perform
these duties in the case of the Office Manager's prolonged absence. As a result, during periods
of increased activity at the Alliance, such as funding cycles, or absence of the Office Manager,
system back-up tasks may be omitted.

Additionally, the Alliance does not use off-site storage for system back-ups. Currently, all
backups are maintained at the Alliance's offices. As a result, the Alliance has not adequately
protected its records from destruction in the event of natural disaster or vandalism.

        Recommendations

We recommend the Alliance focus on measures for improving the effectiveness of its grant
administration process as follows:

    Strengthen its current procedures to include the documentation of its review of subgrantee
    FSRs. A standard review worksheet could be used to document such reviews.

    Document its follow-up efforts related to the late submission of subgrantee reports to the
    Alliance. A telephone log (including date, person contacted, and relevant notes) or written
    notifications could be used for this purpose.

    Develop and implement procedures that require appropriately tagging all property and
    equipment upon receipt.

    Formalize its system back-up procedures by officially assigning this task to a specific staff
    member and an alternate and documenting the back-up procedures to be performed. These
    procedures should include (1) a schedule for the periodic back-up of data and (2) the creation
    of several generations of back-ups, such as the son-father-grandfather approach, which
    would significantly minimize the costs of recreating lost data.

    Obtain off-site storage for system back-ups to guard against loss of data.
Evaluating and Monitoring Subgrantees

As noted above, the Alliance is responsible for monitoring subgrant supported activities to assure
compliance with applicable Federal requirements and that performance goals are being achieved.
The Alliance has established controls to evaluate and monitor subgrantees, which include
reviewing program and financial reports and scheduling site visits for subgrantees during the
grant period. Alliance personnel use a standard site visit report form to document results of each
visit, and the Alliance notifies the subgrantees of the results of these site visits, including
strengths, weaknesses, concerns, recommendations, and any necessary follow-up requirements.

Since program year 1994-95, the Alliance has annually performed programmatic site monitoring
visits of its subgrantees to assess their compliance with applicable requirements and their
progress toward program objectives, In program year 1998-99, the Alliance also assumed the
fiscal monitoring duties which had previously been performed by MDOE and, in program year
1999-2000, the Alliance implemented a risk-based approach to fiscal monitoring. Under this
approach, the riskiest one-third of subgrantees annually receives a fiscal monitoring visit, and the
Alliance performs desk reviews over the expenses of the subgrantees not visited. The Alliance
assesses the risk of each subgrantee based on review of general assessment questionnaires
completed by each subgrantee and the results of OMB Circular A-133 audits.

In Spring 1998, the Alliance began requiring that applicants submit copies of their audited
financial statements and OMB Circular A-133 audit reports, when applicable, during the
application process. Additionally, the Alliance has developed a standard form to document its
review of these reports.

However, we identified the following areas for improvement related to the evaluation and
monitoring of subgrantees.

        Fiscal Monitoring Site Visrts Prior to Program Year 1999-2000

Prior to program year 1998-99, MDOE was responsible for fiscal monitoring of subgrantees.
However, we were not provided documentation to support fiscal monitoring activities for the
nine subgrantees selected during this timeframe. According to MDOE, its fiscal monitoring
records have been archived and could not be retrieved during our on-site work.

In program year 1998-99, the Alliance assumed the fiscal monitoring activities that had been the
responsibility of MDOE. However, during program year 1998-99, no fiscal monitoring site
visits were conducted.

As a result, control weaknesses or instances of material non-compliance related to the
subgrantees' financial systems and expense documentation of which the Alliance is not aware
may exist and may not be corrected. On-site monitoring of fiscal activity and review of
documentation supporting subgrantee expenses enhance a grantee's ability to ensure subgrantee
compliance with applicable federal requirements.

In program year 1999-2000, the Alliance began performing fiscal monitoring site visits and desk
reviews using the risk-based approach described above. Therefore, no recommendation is
required related to fiscal monitoring site visits.
        Review of Subgrantees ' OMB Circular A-133 Audit Reports Prior to Program Year
        1998-99

Prior to Spring 1998, documentation does not exist to support the review of subgrantees' OMB
Circular A-133 audit reports. In addition, for 4 of 20 items tested, the Alliance could not provide
copies of the relevant OMB Circular A-133 audit report or audited financial statements. These
four subgrantees were funded prior to program year 1998-99 when the Alliance assumed
responsibility for all fiscal operations. During this time period, MDOE was responsible for
obtaining and reviewing all audit reports of subgrantees. As a result of this monitoring
deficiency, control weaknesses or instances of material noncompliance related to the
AmeriCorps or Learn and Serve programs may have existed and may not have been corrected.

OMB Circular A-133 Compliance Supplement, March 2000, Part 6 - Internal Control suggests
that review of and follow-up on subgrantees' audit reports is a key component of a program to
monitor subgrantees' compliance with federal grant requirements.

As noted above, in Spring 1998, the Alliance began requiring that applicants submit copies of
their audited financial statements and OMB Circular A-1 33 audit reports, when applicable,
during the annual application process. Alliance personnel document their review of these reports
using a standard form. Therefore, no recommendation is required related to the review of
subgrantees' OMB Circular A- 133 audit reports.

        Site Visit Monitoring Tool

As noted above, the Alliance uses a standard form to document the results of each site visit.
Through the years, the Alliance has continued to refine and improve its monitoring tool as it
receives guidance from the Corporation and other entities.

We noted that the programmatic site monitoring tools used prior to program year 1999-2000 (1)
lacked the items noted below related to the current tool, (2) did not require the review of
timesheets for allowable activities and agreement of total timesheet hours to the end of term
form, (3) lacked space to identify specific Member files reviewed, and (4) contained limited
(1995-96) or no (1994-95) Member file checklist. Moreover, although the current tool is more
comprehensive, it should be enhanced to instruct the evaluator to document the (1) rationale for
sample size selection, (2) Members interviewed and operating sites visited, and (3) verification
of selected program accomplishments.

A reviewer (e.g., supervisor) of the site monitoring tool remains unable to (1) assess if the
sample size selected was adequate and (2) review the same documentation if a question arose
about the results of the test.

        Recommendation.

We recommend the Commission focus on measures for improving the effectiveness of its
evaluation and monitoring of subgrantees by implementing the enhancements identified above to
its current site visit monitoring tool. Although not specifically required by a law or regulation,
including a requirement for more specific documentation in a standard monitoring tool enhances
an organization's ability to consistently evaluate key compliance and programmatic
requirements, validate the results of its reviews, and ensure the performance of all monitoring
steps at each subgrantee visited. Sensitive information documented in the monitoring tool, such
as the identity of Members interviewed, does not need to be included in the site visit report.




This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Massachusetts Service Alliance, and the United States Congress and is not intended to be and
should not be used by anyone other than these specified parties.
                                    Alliance Funding                            Appendix A

The table below and the flowcharts on the following pages depict the Alliance's funding over the
past six program years.

Funding Source
and Type                1994-95

CNS Formula
 Grant Funds           $1,216,406

CNS Competitive
 Grant Funds            4,652,200

CNS Learn and Serve
 Funds                   160,000

CNS PDAT Funds            90.000

CNS Administrative
 Funds                   327.141

CNS Disability
 Funds

CNS State Governor's
 Innovative Funds

CNS State Governor's
 Initiative Funds

CNS America Reads

CNS Educational
 Awards Only

CNS Promise
 Fellows

Carryover                * 55,119

State Matching
 Funds                   208,843




*   This amount was carried over from the 1994 administrative grant awarded to the Alliance
    prior to program year 1994-95, which totaled $232,631.
                                             Alliance Funding                                   Appendix A



     1                                     Corporation for National Service

                       Funding to the Massachusetts Service Alliance 1994-95
         (formerly known as the Massachusetts National and Community Service Commission)




           AmeriCorps
            Formula
             Funds
           $1,216,406

             Match




                                 Total CNS Funds Retained by the Alliance $450,491

                                        Total Alliance Matching Funds $208,843

                                Total CNS Funds Awarded to Sub-grantees $5,995,256



                            f                               f           -               f
                        AmeriCorps                    AmeriCorps                  Leam and Serve:
                          Formula:                    Competitive:
                         $1,216,406                    $4,652,200                    $126,650

                        Subgrantee                     Subgrantee                   Subgrantee
                          Match                          Match                        Match
                        $2,367,522                     $3,770,487                    $19,200

                     Total # o f SUBS                Total # of SUBS              Total # of SUBS
                             12                              2                           14

                     Total # of Sites                Total # o f S ~ t e s        Total # of Sites
                            14                              12                           14


Note 1: The Alliance received a $232,631 Administrative grant prior to the start of program year 1994-95. Of this
amount, CNS approved $55,119 of carryover for use in 1994-95. This amount is not reflected above.
                                                  Alliance Funding                                   Appendix A




                                            Corporation for National Service

                 Funding to the Massachusetts Service Alliance 1995-96
   (formerly known as the Massachusetts National and Community Service Commission)




          AmeriCorps
           Formula
             Funds
          $1,495,752

            Match
                                   AmeriCorps
                                   Competitive
                                     Funds
                                   $4,505,790

                                          Match
                                                            Leam and
                                                              Serve
                                                             Funds
                                                            $153,000

                                                              Match
                                                               $0
                                                                           r-
                                                                           Funds


                                                                                                I
                                                                                                    Administration
                                                                                                       Funds
                                                                                                      $413,461

                                                                                                        Match




                                                         1-                                              +
                            Total CNS Funds Retained by the Alliance $592,582

                                      Total Alliance Matching Funds $178,772


      I                    Total CNS Funds Awarded to Sub-grantees $6,114,492




                                                              v
                        AmeriCorps                       AmeriCorps            Leam and Serve:
                          Formula:                       Competitive:
                         $1,495,752                       $4,505,790               $1 12,950

                         Subgrantee                       Subgrantee               Subgrantee
                           Match                            Match                    Match
                         $2,383,437                       $3,453,136                $161,608

                       Total # o f SUBS                 Total # of SUBS        Total # of SUBS
                               12                               2                     13

                       Total # of Sites                 Total # of Sites       Total # o f Sites
                              14                              12                      13



Note 1: CNS approved $182,239, $19,000 and $72,421 of carryover from 1994-95 for use in 1995-96 for the
AmeriCorps Formula/Competitive, PDAT and Administrative grants. These amounts are not reflected above.
                                     Alliance Funding                                     Appendix A




                                   Corporation for National Service

                 Funding to the Massachusetts Service Alliance 1996-97
   (formerly known as the Massachusetts National and Community Service Commission)




       AmeriCorps
        Formula
         Funds
       $1,706,378

         Match




                          Total CNS Funds Retained by the Alliance $437,754

                                Total Alliance Matching Funds $388,987

                         Total CNS Funds Awarded to Sub-grantees $5,711,045




              AmeriCorps              AmeriCorps         Leam and Serve:       I      Governor's
                Formula:
               $1,706,378
                                      Competitive:
                                       $3,635,277            $137,390          1   Innovative Award:
                                                                                       $232,000

                 Subgrantee            Subgrantee           Subgrantee                Subgrantee
                   Match                 Match                Match                     Match
                 $4,972,932            $3,207,911            $169,323                    $0

             Total # of SUBS        Total # of SUBS      Total # of SUBS            Total # of SUBS
                    17                      2                   10                          1

             Total # of Sites        Total # of Sites     Total # of Sites          Total # of Sites
                   33                       12                   10                        1



Note 1: CNS approved $20,000 and $62,971 of carryover from 1995-96 for use in 1996-97 for the
PDAT and Administrative grants. These amounts are not reflected above.
                                              Alliance Funding                                                  Appendix A


                                                                                                                                  -

                                            Corporation for National Service

                              Funding to the Massachusetts Service Alliance 1997-98
    I




     AmeriCorps            AmeriCorps       Leam and            Educational                      Disability             Administration
       Formula             Competitive        Serve              Awards                           Funds                    Funds
        Funds:               Funds           Funds                 Only                                                   $264,23 1
      $1,615,179           $4,160,138       $156,500              $2,647                         $189,613
                                                                                                                           Match
            Match             Match          Match                Match                                                   $468,835
                               $0              $0                  $0




                                   *           +                   +                                v                        v
                                 Total CNS Funds Retained by the Alliance $750,004

                                         Total Alliance Matching Funds $468,835


        I                      Total CNS Funds Awarded to Sub-grantees $5,886,304

                                                                                                                                  -

                          v                         v                               v                   v
                     AmeriCorps              Amencorps                          Educational      Leam and Serve:
                       Formula:              Competitive:                      Awards Only:
                      $1,615,179              $4,160,138                          $2,647            $108,340

                      Subgrantee               Subgrantee                       Subgrantee         Subgrantee
                        Match                    Match                            Match              Match
                      $5,047,810               $3,668,371                          $0               $533,735

                    Total # o f SUBS        Total # of SUBS                   Total # of SUBS    Total # of SUBS
                            14                      6                                 1                  5

                    Total # of Sites         Total # of Sites                 Total # of Sites   Total # of S ~ t e s
                          28                        18                               1                  5



Note 1: CNS approved $250,000 and $42,000 of carryover from 1996-97 for use in 1997-98 for the
AmeriCorps Formula/Competitive and PDAT grants. These amounts are not reflected above.
                                                                    AS
                                                Alliance Funding                                            Appendix A




                                            Corporation for National Service

                               Funding to the Massachusetts Service Alliance 1998-99




AmeriCorps          AmeriCorps          Leam and                              Administration     America Reads
 Formula            Competitive           Serve                 Funds            Funds              Funds                   Funds
  Funds               Funds              Funds
$1,646,553                              $1 66,000              $251,055             $281,579        $72,500              $165,000
                                                                                                  (see Note 2)
  Match                Match              Match                                      Match                                  Match
   $0                                    $387,834                                   $356,724        Match
                                                                                                     $0

     I



                                  Total CNS Funds Retained by the Alliance $753,634




                                                                              I-
                                       Total Alliance Matching Funds $744,558

                               Total CNS Funds Awarded to Sub-grantees $ 5 3 12,845




                                           i
              AmeriCorps                    AmeriCorps                             Subgrantee
                                                                                    $1 10,000            America Reads:
                Formula:                    Competitive:                                                   $72,500
               $1,646,553                    $3,683,792
                                                                                                            Subgrantee
              Subgrantee                     Subgrantee                              Match                    Match
                Match                          Match                                                           $0
              $1,898,095                     $1,772,932
                                                                              Total # of SUBS            Total # of SUBS
          Total # of SUBS                  Total # o f SUBS                                                      1
                 16                                6                          Total # of Sites           Total # of Sites
          Total # of Sites                 Total # o f Sites                                                     1
                 36                                18
          -
  Note 1: CNS approved $184,120, $751,316, $10,000 of carryover from 1997-98 for use in 1998-99 for the
  AmeriCorps Formula, AmeriCorps Competitive, and Administrative grants, respectively. These amounts are not
  reflected above.
  Note 2: Although CNS awarded and obligated a total of $1,496,250, only $72,500 was released to the Alliance during
  program year 1998-99. Therefore, only $72,500 of this award is included above.

                                                                        A.6
                                                   Alliance Funding                                                  Appendix A




                                                 Corporation for National Service

                              Funding to the Massachusetts Service Alliance 1999-2000




                                  -4
AmeriCorps         AmeriCorps          Leam and          PDAT          Administration           America          Govemor's             Promise
 Formula           Competitive                           Funds            Funds                  Reads           Initiative             Fellow
  Funds              Funds               Funds                                                   Funds             Funds                Funds
$1,597,349         $3,729,136           $168,000                         $279,138               $237,000          $435,000             $169,500
                                                                                              (see Note 2)
  Match               Match              Match                            Match                                       Match             Match
   $0                  $0               $371,329                         $292,677               Match                                    $0
                                                                                                 $0




                       *                                                                      T+                        +
                                   Total CNS Funds Retained by the Alliance $505,139

                                          Total Alliance Matching Funds $664,006

                                 Total CNS Funds Awarded to Sub-grantees $6,277,984




                                                                                                                              i
                                 AmeriCorps         Leam and Serve:                                   Govemor's               Promise Fellows:
       Formula:                  Competitive:          $109,999               $237,000                 Initiative:               $169,500
      $1,597,349                  $3,729,136
                                                      Subgrantee             Subgrantee                                         Subgrantee
      Subgrantee                 Subgrantee             Match                  Match                    Subgran tee               Match
        Match                                            $0                                               Match                    $0
      $5,929,961                 $2,981,777
                                                    Total # of SUBS       Total # of SUBS                                     Total # of SUBS
    Total # of SUBS           Total # of SUBS               4                                       Total # of SUBS                   1
                                                    Total # of Sites       Total # of Sites                                   Total # of Sites
                              Total # of Sites              4                                        Total # of Sites                 I


   Note 1: CNS approved $690,750 of carryover from 1998-99 for use in 1999-2000 for the AmeriCorps
   Formula/Competitive grants. This amount is not reflected above.
   Note 2: CNS initially awarded the Alliance America Reads funds of $1,496,250 in program year 1998-99. Two
   subgrantees were approved in program year 1999-2000, resulting in a funding release from CNS of $237,000, which
   is included above.
                                                       A.7
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Alliance's financial
systems and documentation maintained by the Alliance to provide reasonable assurance that
transactions are properly recorded and accounted for to: (1) permit the preparation of reliable
financial statements and Federal reports; (2) maintain accountability over assets; and (3)
demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Alliance's AmeriCorps grant program, as follows: activities allowed or
unallowed and allowable costs; eligibility; matching; period of availability of Corporation funds;
suspension and debarment; subrecipient monitoring; and reporting by the Alliance to the
Corporation. We then interviewed key Alliance personnel to assess the Alliance's controls
surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Alliance to select national service
    subgrantees to be included in an application to the Corporation;

    as to whether the Alliance evaluated the adequacy of potential subgrantee financial systems
    and controls in place to administer a Federal grant program prior to making the award to the
    subgrantees; and

    as to whether Alliance involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Alliance management and
documented procedures performed by the Alliance during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Alliance.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Alliance to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Alliance's organizational structure and
    staffing level and skill mix are conducive to effective grant administration;
                          Detailed Engagement Objectives
                                 and Methodology                                Appendix B

   make a preliminary assessment as to whether the Alliance provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Alliance to support oversight of subgrantees and required reporting to the
   Corporation (including Financial Status Reports, progress reports, enrollment and exit forms,
   and change of status forms); and

    determine whether the Alliance has procedures in place to verify the accuracy and timeliness
    of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports and progress
reports submitted by subgrantees, as well as Financial Status Reports submitted by the Alliance
to the Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports
and progress reports. We also preliminarily assessed whether the Alliance's implementation of
the Web Based Reporting System (WBRS) had enhanced the grant administration process.

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Alliance, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Alliance has an established subgrantee site visit program in place and
    make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Alliance's procedures used to assess
    subgrantee compliance with Corporation regulations (e.g., those governing eligibility of
    Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Alliance's procedures for obtaining,
    reviewing and following up on findings included in the subgrantee OMB Circular A-133
    audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals;

    make a preliminary assessment of internal controls over service hour and program
    accomplishment reporting; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.
                         Detailed Engagement Objectives
                                and Methodology                               Appendix B


In order to achieve the above objectives, we documented the procedures performed by the
Alliance to evaluate and monitor individual subgrantees. In addition, we judgmentally selected
subgrantees and obtained the Alliance's documentation for site visits. We reviewed the
documentation to preliminarily assess the adequacy of the procedures performed by the Alliance
to assess financial and programmatic compliance and related controls at the sites. We also
determined whether the Alliance received and reviewed OMB Circular A-133 audit reports from
subgrantees.
    MASSACHUSETTS SERVICE
                                                                                                       Appendix C
    ALLIANCE
                                                                                                   March 20, 2001
BOARD OF DIRECTORS

Nancy Korman
760 Arroclater
CHAIR
George Keverian
Everett As~esmI Off<ce                    Ms. Louise Jordan
HONORARY CHAIR
                                          Office of the Inspector General
Julie Bartsch
Educattonal Conruitont                    Corporation for National Service
Ruth Bramson                              1201 New York Avenue, NW
Show I Supermarket Inc
                                          Washington, DC 20525
Paul Buttenwieser
The Famly-to.Fam~lyProlecl

Marilyn Anderson Chase                    Dear Ms. Jordan,
Unlled Way of Moslochurettr Bay

Malcolm Coles
Corpcrol8on lm Nal~onalSerwce                    This letter is in response to the pre-audit survey report conducted by KPMG LLP
Patricia Deyton                           concerning our organization, dated October 27,2000, and issued February 23, 2001.
Ametlcar Red Crorr
                                          We understand that the primary purpose of this survey was to provide preliminary
David Driscoll
Department ol Educat~on                   assessment of the internal controls in regards to our administration and sub-granting
-Robert Durand                            processing of funds granted to us by the Corporation for National Service.
Executive Offlce of Envvonmevtal Altars

Robert Fortes
UMASS Dadmouth                                    Overall, we respectfully disagree with the recommendation for a limited scope
Sally Fuller                              audit. After thoroughly reviewing the report, we feel that although some valuable
IJnded Cooperal~veBank
                                          management improvements were cited, none of the findings or recommendations
Lillian Glickman
Execuhre Office of Elder Affairs
                                          demonstrate material weaknesses with regard to our internal controls. In addition, we
Paul Herdman                              feel that since the Alliance met all of the State Administrative Standards during the
Harvwd Graduate School ot Educat!on
                                          review in the Spring of 2000, this further illustrates that we perform at a consistently
John Judge
kub,tot tor H~man~hl
                  Boston
                                          high level. Finally, we feel that the pre-audit survey does not take into consideration the
Jack King                                 findings and some of the documentation in the State Administrative Standards Report
MA D#vlrionol Employment L rrornng
                                          that was submitted to you prior to the survey.
Natalie lashmit
lown Admln~rtatw.Boxborough

Elizabeth Morse                                   Furthermore, we disagree specifically with the recommendation for a limited
Exec Otflce of Health L Human Serwcer
                                          scope audit that would focus on sub-grantee expenses for program years 1994-95 through
Elizabeth Zwick                           1998-99. First of all, the number of our sub-grantees subject to annual A-133 is incorrect
Marsachvreltr Compur Compacf

                                          in the chart on the top of page four in the report. The information presented only took
                                          into consideration the amount of federal funding received from CNS, and did not take
Maureen F. Curley
Erecutwe Director
                                          into account other federal funding these organizations received. The revised chart, found
                                          in attachment A, illustrates an entirely different picture. The fact that, 98% of our
                                          AmeriCorps grantees went through substantial A-133 Audit by independent CPA firms,
                                          in our opinion, mitigates the risk of the expenditures under this grant.

                                                  The following are our comments on individual recommendations as outlined in
                                          the report.
Conflict of Interest

        We disagree with this issue as a finding in our pre-audit survey report, due to the fact that
Commissioners are not required by the Corporation of National Service to complete Conflict of
Interest forms. The Alliance has had a long standing practice to have board members with a conflict
of interest concerning applicants to state so before the vote and decline from voting on that grant.
This practice is well documented in our meeting minutes. However, the Alliance does see this
recommendation as a good management practice. Therefore, we have instituted a new policy by
which all board members will sign a conflict of interest form at the beginning of each meeting at
which grants will be decided.

Review and Timely Submission of FSR's

        We disagree with this issue as a finding in our pre-audit survey report. Our policy was
informal, and included a review of the FSR's to check for mathematical errors and review budget
expenditure to check for matching levels. This review was unique for each report due to the
individually of the program's budget that was submitted. This review was not documented and we
did not have a check sheet to show exactly what was reviewed in each form. A form to document
this review is a good management practice, however, and we will institute such a process.

       We also have an informal policy to follow-up on FSR submission with grantees. We require
programs to submit FSR's approximately two weeks prior to the CNS deadline in order to provide us
with ample time to prepare an aggregate report. As a result, our submissions to CNS have always
been timely. This was noted and documented in our State Administrative Standards Report issued on
July 26, 2000 and submitted to you as preparation for the Pre-Audit Survey. This demonstrates that
our procedures work.

       It is our opinion that a phone log to document follow-up would be an unnecessary
administrative burden when first attempting to obtain grantee reports. We do agree, however, that it
would be appropriate to document additional follow-up when necessary.

Tagging of Property and Equipment

       Again, the Alliance disagrees with this issue as a finding, and does not see this as a material
weakness with regards to our internal controls. The Alliance has strong controls with regards to
equipment. There is a detailed inventory maintained by the Office Manager. There is also a
requirement to sign out for the use of the lap top computers, overhead projector and LCD projector.
These small, but valuable items are kept in a locked cabinet when they are not signed out.

       Although the Alliance feels that our polices with regard to equipment are sound, we agree
with the management suggestion to tag all capital equipment items.

Computer Back-up

       The Alliance disagrees with this issue as a finding, and does not see this as a material
weakness with regard to our internal controls. The Alliance agrees with the operational suggestion to
keep computer back-ups off site. We have instituted a comprehensive policy to protect our valuable
information. This not only includes keeping information off-site, but also includes our recent
purchase of a fireproof cabinet for our office.
Sub ,uantee Monitoring

        The Alliance, as stated on page 1, does not agree with this issue as a finding. The Alliance
has always had the requirement that Grantees submit a copy of the organizations annual A-1 33 audit
with the proposal upon submission of both new and continuation packages. This policy has ensured
that the Alliance collected the information upfront and that the information would be incorporated in
the review. Please see enclosed page of RFP's for 1994 to present. You will note that in two places
applicants are instructed to include the audit materials.

Site Visit Monitoring Tool

       We disagree with this as a finding in our pre-audit survey. We feel that our current
monitoring system is adequate to review our programs. This was noted in our State Administrative
Standards Report issued on July 26, 2000. We not only utilize the tool that was reviewed, but
accompany it with annual accomplishment reviews, progress reports, informal site visits, WBRS
review and other interactions with programs. We feel that we have a comprehensive approach to our
sub-grantee monitoring.

       Thank you for the opportunity to comment on our pre-audit report.     Please do not hesitate to
contact me if you would like further information or clarification.




cc: Corporation for National Service
Enclosure(s)
       Revised Schedule of sub-grantees subject to A- 133 audits
       RFP for 1994 - 1999 requiring A- 133 audits as a application requirement
                                                                          Appendix D
Memorandum

TO:            Luke Jordan. Inspector General                          AmeriCorps National Service   C 0 R P 0 RAT I 0 N

                                                                                                     FOR NATIONAL
THRU:          William Anderson, Deputy Chief
                                                                                                      SERVICE
FROM:          Peter Heinaru. Director, AmeriC

SUBJECT:       Comments on the OIG Draft Report 01 -24, Pre-Audit Survey of the
               Massachusetts Service Alliance

DATE:          March 26. 200 1


We have reviewed the draft pre-audit survey of Massachusetts Service Alliance (Alliance) and
are pleased to note that the Alliance:

        +   administers an open, competitive process to select national service subgrantees;

        +   has developed adequate control policies and procedures to administer the
            Corporation's grant funds; and

        +   has established controls to evaluate and monitor subgrantees.

This letter comments on several key issues identified in the report.

In the section, Selecting Subgrantees, under the Completion of Conflict oJ'Interest Forms fir '4 11
C'ommi.s.sioners there is one recommendation. The recommendation states that:

        "We recommend that the Alliance develop and implement procedures that require
        all Commissioners to annually complete conflict of interest statements for each of
        the Alliance's three grant funding streams."

The Corporation agrees that Commissioners should document that no contlict of interest exists.
Each Commission is responsible to establish their own procedures in that regard. The Alliance
has established a new policy to require all board members present at any meeting during which a
vote is taken to sign a conflict of interest form prior to voting on a particular subgrantee.

In the area of Administering Grant Funds, there were five recommendations that generally
related to FSR receipt and property controls. The Corporation notes that these recommendations
are designed to strengthen the current controls already in place. The Corporation concurs that
the Alliance should have written policies and procedures in place and should take             1201 New York Avenue. ~W
                                                                                              Washmgton. DC 20525
preventative measures to assure system backup.                                                Telephone 202-6'355000



                                                                                                      Geeting llings Done.
                                                                                                      Amencorps, National SzrvlCe
                                                                                                      Learn and %we Amcnca
                                                                                                      Nat~onalSenlor Seiervlce Corps
Ms. L u k e Jordan




In the section Evaluating and Monitoring Subgrantees. regarding the Sire L'isir .Chi/ol.iu;<
Tool, the Corporation disagrees with the following recommendation:

        "We recommend the Commission focus on measures for improving the
        effectiveness of its evaluation and monitoring of subgrantees by implementing the
        enhancements identified above to its current site visit monitoring tool. Although
        not specifically required by law or regulation, including a requirement for more
        specific documentation in a standard monitoring tool enhances an organization's
        ability to consistently evaluate key compliance and programmatic requirements.
        validate the results of its reviews, and ensure the performance of all monitoring
        steps at each subgrantee visited."

The Alliance's monitoring tool in conjunction with the annual accomplishment report recorded
in WBRS, progress reports, and other informal visits meets the requirements set forth by the
Corporation. The Alliance's methodology adequately documents the results and resolution of
issues identified on site visits and provides a level of oversight of its subgrantees based on the
level of risk.

The section Results in Brief includes a recommendation for a limited scope audit of the
Commission. The Corporation notes that the pre-audit survey had generally favorable results
and there are no other significant indicators of risk at the Alliance. The Alliance has strong
oversight and monitoring procedures in place. In addition, the Corporation recently performed
an Administrative Standards review at the Commission. Based on that review, the Corporation
determined that the Commission met the standards in all areas and continues to meet the
requirements and regulations established by the Corporation. Accordingly, the Corporation does
not believe such an audit is necessary.
